HHS/OIG, Audit -"Audit of the Medicaid Drug Rebate Program in the State of Tennessee,"(A-04-03-06012)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of the Medicaid Drug Rebate Program in the State of Tennessee," (A-04-03-06012)
September 2, 2003
Complete
Text of Report is available in PDF format (5.06 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether the Bureau of TennCare had established adequate accountability and
internal controls over the Medicaid drug rebate program.  Our audit covered Medicaid drug rebates through June 30,
2002.  While TennCare has adequate accounting procedures and internal controls to effectively pursue outstanding receivables
from drug manufacturers, we found the amounts reported to the Centers for Medicare and Medicaid Services (CMS) did not
agree with the amounts supported by the accounting records.  There was no audit trail to support the drug rebate activities
reported to CMS.  As a result, there is no assurance that the program has provided CMS with an accurate picture of
the drug rebate program.  We recommended that TennCare verify all amounts reported to CMS to ensure that those amounts
tie directly back to the amounts recorded in the accounting records. TennCare officials agreed with our findings and have
taken steps to identify and correct their reporting weaknesses.